No.

IN THE SUPREME COURT OF THE UNITED STATES

GREGORY OWENS
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29, I certify that three copies of the
Petition for a Writ of Certiorari have been served on the following persons by First
Class Mail or hand delivery:
Sangita Rao, AAG
United States Department of Justice
950 Pennsylvania Avenue, NW
Room 1248
Washington, DC 20530-0001
(202)305-3607
I declare under penalty of perjury that the foregoing is true and correct.
Dated: June 25, 2019

Sarah A. Churchill, Esq.
Bar No. 304197
Nichols & Churchill, P.A.
1250 Forest Avenue
Portland, ME 04103
schurchill@nicholschurchill.com
(207)879-4000

